August 29, 2002

HENRY A. PANKEY
VICE PRESIDENT, DELIVERY AND RETAIL

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SYLVESTER BLACK
MANAGER, CAPITAL METRO OPERATIONS

SUBJECT:      Management Advisory – Delayed Letter Carrier Operations in the Capital
              Metro Area (Report Number TD-MA-02-005)

                                       Background

On November 19, 2001, the Office of Inspector General (OIG) announced an audit of
carrier productivity to determine if letter carrier operations were effective, and to identify
opportunities for cost savings (Project Number 02YG003TD000). The announcement
responded to a request from the postmaster general.




                                Letter carriers delivering mail.




                                     Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area                        TD-MA-02-005




                          Objective, Scope, and Methodology

The purpose of this management advisory was to notify Postal Service officials of letter
carrier delays we observed in the Capital Metro Area during preliminary audit survey.
During our work, we interviewed Postal Service officials at headquarters, in the Capital
Metro Area, and in various other Postal Service areas. We visited 14 delivery units and
other facilities in Northern Virginia and Baltimore; interviewed Postal Service managers
and employees; and observed letter carrier operations. We also analyzed relevant
Postal Service policies and procedures. Work associated with this advisory was
conducted from March through August 2002 in accordance with the President's Council
on Integrity and Efficiency, Quality Standards for Inspections. We discussed our
conclusions and recommendations with appropriate management officials and included
their comments, where appropriate.

                                            Observations
Delayed Letter Carrier Operations. Every day, Postal Service processing and
distribution centers distribute mail to local post offices, where letter carriers sort
it, prepare it for delivery, and deliver
it. On the mornings of March 26-27,
2002, we visited four Northern
Virginia post offices, where we
observed more than 100 letter
carriers who were ready to begin
their delivery routes, but were
waiting for periods of up to 1 hour
and 45 minutes. On the mornings
of April 2-3, 2002, we visited
two Baltimore post offices where we
observed the same conditions—with
more than 20 carriers waiting for
periods of up to 45 minutes. Our
inquiries revealed that the carriers
were waiting for “missent” mail which
processing and distribution centers
had distributed to the wrong post           Daily distribution of mail from processing
office. Employees and managers we           and distribution centers to local post
spoke to explained that under local         offices. Mail sent to the wrong post office
                                            should normally be returned to the
procedures, missent mail was                processing and distribution center.
rerouted—using local
transportation—to a




                                                      2
                                           Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area                           TD-MA-02-005



centrally located post office or “hub,” where it was then sent directly to the correct post
office for delivery.




         HUB OPERATIONS

       Under local procedures,
       missent mail is not returned to
       the processing and
       distribution center, but
       rerouted—using local
       transportation—through a
       central post office or “hub,”
       where it is sent directly to the
       correct post office.




                   Capital Metro Area “hub” resorting operations – mail is resorted
                                   in preparation for redistribution.




                                                      3
                                           Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area                         TD-MA-02-005



Letter carriers explained that waiting for the missent mail frequently delayed their
departure onto delivery routes. Our analysis of Capital Metro Area records, and our
interviews with officials, supervisors, and letter carriers, indicated that:

    •   The number of carrier routes in the Capital Metro Area affected by “hub”
        operations was substantial. Specifically, 5,607 routes, or more than 75 percent
        of the 7,461 total routes in the Capital Metro Area, were affected by hub
        operations.

    •   Missent mail volume was sometimes insignificant. For example, on March 27,
        2002, at one Post Office, 23 carriers waited 1 hour and 45 minutes for 799 pieces
        of mail—less than 1 percent of that day’s mail volume at that facility. In addition,
        our analysis of three Capital Metro Area facilities, revealed that on average,
        carriers waited for about one-half percent of the facilities’ daily mail volume, or
        approximately ten letters per day, per carrier.

Postal Service officials we spoke to in other Postal Service areas told us that hub
operations in their areas were eliminated because hub operations were too costly. Our
analysis of the Capital Metro Area indicated that in addition to the cost of late customer
delivery, the cost of making carriers wait for missent mail may have included:

    •    Unnecessary overtime. For example, on the days we observed carriers waiting
         for missent mail, the post offices involved approved overtime.

    •    Duplicate transportation costs. For example, local hub transportation can
         duplicate regularly scheduled transportation.




                                                                    Capital Metro Area hub
                                                                    transportation may
                                                                    duplicate regularly
                                                                    scheduled
                                                                    transportation.




                                                      4
                                           Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area                    TD-MA-02-005



When we discussed our observations with Capital Metro Area officials, they stated that
hub operations may not be meeting their original intent, and they subsequently
instructed local managers to monitor hub operations to determine the impact on delivery
operations.

In April 2002, after our initial visits to the Capital Metro Area, Postal Service
Headquarters issued Handbook PO-441 Rehandling of Mail Best Practices. Our review
of the handbook revealed that area hub operations were inconsistent with handbook
provisions. Specifically, the handbook stated that when processing and distribution
centers send mail to the wrong post office, the mail should be identified, segregated,
and returned to the processing and distribution center. The handbook also
characterized this step as “one of the most important elements in improving mail
service,” but acknowledged that in order to ensure timely delivery, some districts may
have special instructions.

After the handbook was issued, we discussed it with senior Capital Metro Area officials.
The officials told us that it was their intent to eliminate or substantially reduce hub
operations, and that based on our previous discussions, they had already taken
aggressive action to do so.

Recommendation

We recommend the manager, Capital Metro Area Operations:

    1. Continue to analyze area hub operations; discontinue or modify operations that
       are not operationally or cost effective; and where hub operations are to continue,
       provide “special instructions” to ensure operations are cost effective.

Management’s Comments

Management stated that they recognized the impact hub operations had on the
performance of delivery units, and that employees waiting for mail to arrive from a
central hub location was neither good business nor good for employee moral. They
also:

    •   Directed district managers to terminate hub operations not later than the last day
        of fiscal year (FY) 2002.

    •   Referred district managers to the missent mail handling instructions specified in
        Handbook PO-441 Rehandling of Mail Best Practices, dated April 2002.

    •   Stipulated that any continuation of hub operations beyond the last day of
        FY 2002 must be specifically approved by Capital Metro Area Operations.




                                                      5
                                           Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area                    TD-MA-02-005



Recommendation

We recommend the vice president, Delivery and Retail, and the vice president, Network
Operations Management:

    2. Provide nationwide guidance to ensure missent mail hub operations, if employed,
       are necessary, effective, and efficient.

Management’s Comments

In a letter addressed to area vice presidents, dated August 8, 2002, management:

    •   Emphasized the discontinuance of hub operations that could not be proven cost
        effective.

    •   Referred area vice presidents to the missent mail handling instructions specified
        in Handbook PO-441 Rehandling of Mail Best Practices, dated April 2002.

    •   Directed each area to review current hub operations, discontinue or modify
        operations that were not cost effective, and complete their review by
        September 15, 2002.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendations. We consider the
actions taken and planned sufficient to address the issues we identified. Management
comments, in their entirety, are included in the appendix of this report.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joe Oliva,
director, Transportation and Delivery, at (703) 248-2100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment



                                                      6
                                           Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area         TD-MA-02-005



cc: Patrick R. Donahoe
    John A. Rapp
    Michael F. Spates
    Anthony M. Pajunas
    Walter F. O’Tormey
    Susan M. Duchek




                                                      7
                                           Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area         TD-MA-02-005



                     APPENDIX. MANAGEMENT’S COMMENTS




                                                      8
                                           Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area         TD-MA-02-005




                                                      9
                                           Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area         TD-MA-02-005




                                                     10
                                           Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area         TD-MA-02-005




                                                     11
                                           Restricted Information
Delayed Letter Carrier Operations in the Capitol Metro Area         TD-MA-02-005




                                                     12
                                           Restricted Information
